             Audit Report



  Non-receipt of Social Security
Benefits Due to Unauthorized Direct
          Deposit Changes




        A-02-13-23004 | May 2014
MEMORANDUM


Date:      May 13, 2014                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes
           (A-02-13-23004)

           The attached final report presents the results of our audit. Our objective was to quantify the cost
           of replacing missing Social Security benefit payments due to unauthorized direct deposit
           changes.

           Please provide within 60 days a corrective action plan that addresses each recommendation. If
           you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Non-receipt of Social Security Benefits Due to Unauthorized
Direct Deposit Changes
A-02-13-23004
May 2014                                                                  Office of Audit Report Summary

Objective                                  Our Findings

To quantify the cost of replacing          We identified 23,192 beneficiaries who had multiple changes to
missing Social Security benefit            their direct deposit information and who reported that they did not
payments due to unauthorized direct        receive 25,728 Social Security payments, totaling $28.3 million,
deposit changes.                           between September 2, 2011 and June 11, 2012. SSA sent
                                           replacement payments to many beneficiaries, but not all of them
Background                                 had their missing payment replaced. In total, SSA sent replacement
                                           payments totaling $17.4 million to 13,380 individuals.
Beginning March 1, 2013, most
beneficiaries are required to receive      When SSA issues a replacement payment, it also initiates a teletrace
their payments through direct deposit      request with the Department of the Treasury to determine the status
rather than paper checks. Because of       of the initial non-received payment. In cases that involve
this new requirement, the Social           unauthorized changes to direct deposit information, the Department
Security Administration (SSA) expects      of the Treasury often determines that the new financial account that
the volume of direct deposit-related       received the initial payment was in the beneficiary’s name because
requests from beneficiaries to increase.   fraudsters used the beneficiary’s identity to establish the bank
                                           account they control. Since the payment was deposited into an
In October 2011, we began tracking         account under the beneficiary’s name, the Department of the
allegations that indicated individuals     Treasury does not return a credit to SSA, and SSA establishes an
other than the beneficiaries or their      overpayment on the beneficiary’s record.
representatives had redirected benefit
payments away from the beneficiaries’      SSA charged 2,452 of the beneficiaries who received replacement
bank accounts to accounts the              payments with overpayments totaling $3 million.
individuals controlled. As of May
2013, we had received over 36,000          Our Recommendations
reports concerning an unauthorized
change or a suspected attempt to make      1. Provide beneficiaries replacement payments for missed
an unauthorized change to a                   payments due to unauthorized changes to their direct deposit
beneficiary’s direct deposit                  information.
information in SSA’s records.
                                           2. Implement a consistent policy to refund overpayments collected
Congressional staff requested that we         from beneficiaries for replacement payments received after
determine the cost of replacing missing       unauthorized changes to their direct deposit information.
Social Security benefit payments due
to unauthorized direct deposit changes     3. Ensure beneficiaries with outstanding overpayments for
and whether beneficiaries who had             replacement payments after unauthorized changes to their direct
their payments misdirected received           deposit information are not held liable for repaying them.
the payments they were due.
                                           The Agency disagreed with Recommendation 1 and 2, and agreed
                                           with Recommendation 3.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Unauthorized Direct Deposit Changes.......................................................................................1
     The Office of the Inspector General’s Response .......................................................................2
     SSA’s Response .........................................................................................................................2
     Audit Population ........................................................................................................................3
Results of Review ............................................................................................................................4
     Non-received Payments .............................................................................................................5
     Replacement Payments ..............................................................................................................5
     Overpayments ............................................................................................................................6
     SSA’s Policy Change .................................................................................................................8
Conclusions ......................................................................................................................................9
Recommendations ..........................................................................................................................10
Agency Comments .........................................................................................................................10
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Non-received Payment transactions .................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)
ABBREVIATIONS
ATS                  Audit Trail System

CPS                  Critical Payment System

MBR                  Master Beneficiary Record

OIG                  Office of the Inspector General

PHUS                 Payment History Updating System

POMS                 Program Operations Manual System

ROAR                 Recovery of Overpayments, Accounting and Reporting

SSA                  Social Security Administration




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)
OBJECTIVE
Our objective was to quantify the cost of replacing missing Social Security benefit payments due
to unauthorized direct deposit changes.

Congressional staff requested that we determine the cost of replacing missing Social Security
benefit payments due to unauthorized direct deposit changes and whether beneficiaries who had
payments misdirected received the payments they were due. Our methodology allowed us to
estimate the costs of unauthorized changes and identify beneficiaries who did not receive benefit
payments they were due because of unauthorized changes.

BACKGROUND
Pursuant to changes in Federal regulation, 1 beginning March 1, 2013, most beneficiaries are
required to receive their payments through direct deposit rather than paper checks. 2 Because of
this new requirement, the Social Security Administration (SSA) expects the volume of direct
deposit-related requests from beneficiaries to increase.

SSA beneficiaries have a variety of ways of initiating a direct deposit change. Beneficiaries can
request changes by calling or visiting an SSA office, by calling SSA’s 800-number, through
SSA’s Website, 3 or through their financial institution (auto-enrollment).

Unauthorized Direct Deposit Changes
In October 2011, we began tracking allegations that indicated individuals other than the
beneficiaries or their representatives had fraudulently redirected benefit payments away from the
beneficiaries’ bank accounts to accounts the individuals controlled. As of May 20, 2013, we had
received over 36,000 reports concerning an unauthorized change or a suspected attempt to make
an unauthorized change to an SSA beneficiary’s record. 4




1
 31 C.F.R. § 208.3. Although the C.F.R. states the effective date is January 2, 1999, temporary exemptions/waivers
allowed for payment by check through February 28, 2013. 31 C.F.R. § 208.4; SSA, POMS, GN 02402.001B.2
(August 22, 2012).
2
    See 31 C.F.R. § 208.4 for waivers to this requirement.
3
  At the time of our audit, SSA had an Internet application that allowed individuals to request changes to their direct
deposit information. SSA introduced MySSA in May 2012 and made direct deposit information changes available
through MySSA as of January 2013, which is after our audit period. Our audit population does not include direct
deposit changes initiated through MySSA. It includes direct deposit changes initiated by the Internet application
that proceeded MySSA.
4
    These are allegations the OIG received.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)                    1
The Office of the Inspector General’s Response
Our Office of Investigations is investigating allegations that individuals are fraudulently
changing beneficiaries’ direct deposit information in SSA’s records. Our Office of Audit has
completed the following reviews of the controls over direct deposit changes that originated
through the different methods available.

     Direct Deposit Changes Initiated by the SSA’s National 800-Number Staff (A-02-12-21272),
      July 10, 2012.

     Direct Deposit Changes Initiated Through Financial Institutions and the Social Security
      Administration’s Internet and Automated 800-Number Applications (A-14-12-21271),
      December 20, 2012.

     Controls over the Enrollment Process with the Direct Express® Debit Card Program
      (A-15-12-21273), December 21, 2012.

     Controls over Direct Deposit Changes Initiated in Field Offices (A-06-12-22101),
      January 23, 2013.

During these audits, we spoke with 129 beneficiaries who reported they did not receive benefit
payments after their direct deposit information in SSA’s records was changed. Another direct
deposit change was made after they reported they did not receive their benefit payments. Of the
129 beneficiaries with whom we spoke, 117 reported they did not authorize the changes to their
direct deposit information that led to their not receiving benefit payments.

These audits concluded that the controls over direct deposit account changes were not fully
effective and did not prevent SSA from processing direct deposit account changes requested by
someone other than the beneficiary or his/her authorized representative without the beneficiary’s
or representative’s approval or knowledge.

SSA’s Response
According to SSA’s Program Operations Manual System (POMS), 5 unauthorized changes of
direct deposit routing numbers could be the result of fraud, and, if fraud is suspected, employees
should refer cases to the Office of the Inspector General (OIG). 6 In May 2012, SSA released
Emergency Message EM-12021, Handling Alleged Direct Deposit Fraud Cases and the
Resulting Overpayments, which requires that SSA field office employees report any beneficiary
claim of an unauthorized direct deposit change made to his/her account to OIG for investigation.




5
    SSA, POMS, GN 02406.007 C (August 20, 2012).
6
    Instructions on how to refer cases to the OIG are found in SSA, POMS, GN 04100.000.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   2
SSA has taken additional steps to strengthen the controls over the processes used to change
direct deposit information in its systems.

     In November 2012, SSA revised its policy for verifying the identities of callers who request
      to establish, change, or cancel direct deposit payments. 7
     It issued reminders to its staff on properly processing callers’ requests to change direct
      deposit information, especially if the related record in SSA’s systems has notations indicating
      the beneficiary’s direct deposit information was previously changed fraudulently. 8
     SSA implemented the Direct Deposit Auto-Enrollment Fraud Prevention block on
      November 16, 2012, which allows SSA, at beneficiaries’ request, to block direct deposit
      changes made through the auto-enrollment process. 9
     SSA terminated the use of the Direct Deposit Automated Application for all field office
      callers as of March 18, 2013.
     SSA terminated the use of Direct Deposit Automated Application for all 800-number callers
      as of March 27, 2013.
     SSA implemented an eServices Block on April 15, 2013, that allowed SSA, at beneficiaries’
      request, to block direct deposit changes made through the MySSA portal.

Audit Population
For this review, we identified 23,192 beneficiaries who had multiple changes to their direct
deposit information and who reported that they did not receive 25,728 Social Security payments,
totaling $28.3 million, between September 2, 2011 and June 11, 2012. All the beneficiaries had
an initial change to their direct deposit information before the payment they did not receive and a
second change to their direct deposit information on or after the date of the payment they
reported they had not received.

From previous audit work that used a similar methodology, we believe the changes made to the
beneficiaries’ direct deposit information that led to their not receiving their benefits were likely
not authorized by the beneficiaries. 10 During our previous audit work, we spoke with




7
    The Agency made additional policy revisions in February and July 2012.
8
 The reminders were issued as multiple Operational Bulletins, Emergency Messages, Administrative Messages, and
Transmittals to teleservice and processing centers and all SSA employees. SSA also issued reminders on how to
properly process direct deposit requests, and prevent and report fraud.
9
 SSA is exploring the possibility of developing a procedure to add a temporary Direct Deposit Auto-Enrollment
Fraud Prevention block to a beneficiary’s record, initially without the beneficiary’s consent.
10
  For this review, we define an unauthorized change to direct deposit information as a change made by individuals
other than the beneficiaries or their representatives, unknown to the beneficiaries or their representatives, and which
redirected benefit payments away from the beneficiaries’ bank account.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)                    3
beneficiaries who confirmed that they did not authorize the changes to their direct deposit
information that led to not receiving their benefit payments.

After discussions with SSA, we contacted 50 individuals in our population in the fall of 2013 to
ask them whether they authorized the direct deposit changes we identified. We selected
50 beneficiaries from the latter part of our audit period because we believed they would be best
able to recall the facts of their cases. We focused on beneficiaries who did not receive
replacement payments.

We spoke with 36 of the 50 beneficiaries. Of these, 22 reported they had not authorized the
changes, 3 refused to answer our questions, and 11 reported they authorized the changes. Of the
14 beneficiaries we were unable to locate, 4 had messages in SSA’s records that indicated the
changes were unauthorized and potentially fraudulent.

The records for the beneficiaries in our population often had other indicators that increased the
likelihood the direct deposit changes were unauthorized. While we believe the direct deposit
changes for the 23,192 beneficiaries were unlikely authorized by them or their representative
payees, we realize that some of them may have been authorized changes. See Appendix A for
additional information on the beneficiaries we contacted and our scope and methodology.

RESULTS OF REVIEW
We identified 23,192 beneficiaries who had multiple changes to their direct deposit information
and who reported they did not receive 25,728 Social Security payments, totaling about
$28.3 million, between September 2, 2011 and June 11, 2012. SSA sent replacement payments
to many beneficiaries, but not all of them had their missing payment replaced. In total, SSA sent
replacement payments totaling $17.4 million to 13,380 individuals.

When SSA issues a replacement payment, it also initiates a teletrace request with the Department
of the Treasury to determine the status of the initial non-received payment. When the
Department of the Treasury determines the initial payment was deposited into an account under
the beneficiary’s name, the Department of the Treasury does not return a credit to SSA and SSA
establishes an overpayment on the beneficiary’s record. In cases involving unauthorized changes
to direct deposit information, the Department of the Treasury often determines that the new
financial account that received the initial payment is in the beneficiary’s name because fraudsters
used the beneficiary’s identity to establish the bank account they control. SSA charged 2,452 of
the beneficiaries who received replacement payments for non-received benefit payments with
overpayments totaling $3 million.

SSA revised its policies to address the replacement of payments not received due to unauthorized
changes to a beneficiary’s direct deposit information on May 7, 2012, which was the end of our
audit period. Per the policy, SSA will provide eligible beneficiaries immediate payments to
replace those not received due to unauthorized direct deposit changes and suspend the collection
of overpayments caused by the replacement payments. We found that SSA did not always
follow its revised policy for reports of non-received payments after May 7, 2012. Also, the
revised policy instructed SSA staff on how to process reported missed payments due to


Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   4
unauthorized changes on or after May 7, 2012. To our knowledge, SSA has not applied the new
policy to cases of missed payments reported prior to May 7, 2012.

Non-received Payments
Between September 2, 2011 and June 11, 2012, there were 23,192 beneficiaries who had
multiple changes to their direct deposit information and reported they did not receive
25,728 Social Security payments totaling $28.3 million. (See Appendix B for additional
information on the methods used to initiate the direct deposit changes and the geographic
location of the beneficiaries who had their accounts changed.) SSA recovered 8,231 of the
reported non-received payments, 11 totaling $10.9 million, 12 from the banks into which they were
deposited. 13

Replacement Payments
SSA sent replacement payments to 13,380 beneficiaries who reported they did not receive
benefit payments totaling $17.4 million. SSA sent replacement payments to 7,695 of the
7,847 beneficiaries for whom it recovered the initial non-received payments. 14 SSA also sent
replacement payments to 5,896 15 of the 15,760 16 beneficiaries whose payments were not
recovered.

We compared the number of replacement payments SSA sent for non-received benefit payments
by month for the period of our review and found that SSA did not replace 38 to 51 percent of
reported non-received payments in any given month. See Table 1.




11
     SSA recovered the full amount of 8,136 payments and partial amounts for 95 payments.
12
  The amount of funds recovered by SSA is for returned checks credited as of August 21, 2012, which is the date
we extracted the data used for this part of our analysis, and for recovered funds credited through March 27, 2013
towards overpayments charged.
13
  SSA may have recovered additional payments that were not easily identified in its records. SSA did not record all
partial payment recoveries as returned payments. While we were able to identify some partial recoveries of
non-received payments SSA credited as remittances toward the overpayments we identified, we may not have
identified all the partial recoveries because SSA recorded some as overpayment deletions. However, not all
overpayment deletions represent recovered funds. Therefore, SSA may have recovered some additional portion of
the $17.4 million beneficiaries reported they did not receive.
14
  The remaining 152 beneficiaries did not receive replacement payments for various reasons, including that the
returned check was credited to a prior overpayment on the beneficiaries’ record or the beneficiaries died before a
replacement payment could be provided and SSA had not located the individual entitled to the underpayment.
15
  There were 211 individuals who received replacements for a payment that was recovered and a payment that was
not recovered.
16
  There were 415 individuals who had 1 or more payments recovered, but not all payments recovered. They are
included in both the 7,695 beneficiaries for whom SSA recovered the initial non-received payments and the
15,760 beneficiaries whose initial payments were not recovered.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)                   5
               Table 1: Non-received Payments and Replacement Payments by Month
                                                                                              Non-received
                                                                 Non-received
                                      Number of                                             Payments Without
                                                               Payments Without
             Month                  Reported Non-                                            a Replacement
                                                                a Replacement
                                  received Payments                                            Payment by
                                                                   Payment
                                                                                                Month 17
        September 2011                        542                         246                     45 %
        October 2011                        2,520                       1,162                     46 %
        November 2011                       3,536                       1,523                     43 %
        December 2011                       2,920                       1,477                     51 %
        January 2012                        3,325                       1,397                     42 %
        February 2012                       3,560                       1,425                     40 %
        March 2012                          2,794                       1,224                     44 %
        April 2012                          2,824                       1,223                     43 %
        May 2012                            2,511                       1,011                     40 %
        June 2012 18                        1,196                         454                     38 %
              Total                       25,728                       11,142                        43 %

We provided SSA a list of the payments that were not replaced and asked it to explain why the
beneficiaries did not receive replacement payments. SSA responded that instructions on policy
for replacing all fraudulently misdirected benefit payments and suspending collection of related
overpayments were not issued until May 2012. However, before the new instructions were
issued, SSA policy stated that a Critical Payment System payment may be issued when the non-
receipt of an electronically deposited benefit payment was alleged and the payment was sent to
the incorrect bank. 19 Also, for 2,125 of the beneficiaries who did not receive a replacement
payment, SSA’s records indicated that the beneficiaries’ direct deposit information was
fraudulently changed or SSA had referred the case to OIG for investigation.

Overpayments
When SSA issues a replacement payment, it also initiates a teletrace request with the Department
of the Treasury to determine the status of the initial non-received payment. When the
Department of the Treasury determines the initial payment was deposited in an account under the


17
     The payments had not been replaced as of August 21, 2012, the date our data were extracted for this analysis.
18
     The numbers for June are through June 11, 2012.
19
  SSA, POMS, RS, 02801.001 A.2e (January 8, 2010). Additionally, the non-receipt desk chart in POMS, GN
02406.004 (October 5, 2010) states that when non-receipt of a Title II direct deposit payment is reported and the
routing number is valid, but not the correct routing number for the beneficiary’s financial institution, a CPS payment
should be issued and the case controlled for 20 days.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)                   6
beneficiary’s name, the Department of the Treasury does not return a credit to SSA, and SSA
establishes an overpayment on the beneficiary’s record. In cases involving unauthorized changes
to direct deposit information, the Department of the Treasury often determines that the new
financial account that received the initial payment is in the beneficiary’s name because fraudsters
used the beneficiary’s identity to establish the bank account they control.

SSA recorded overpayments for 2,452 of the beneficiaries who reported they did not receive
their initial benefit payments and received replacement payments totaling $3 million. SSA based
the overpayments on the replacement payments paid.

SSA took the following action on the 2,452 overpayments.

    SSA collected $894,968 from 970 beneficiaries. 20
    SSA recovered $78,370 from the banks into which the initial benefit payments were
     deposited. SSA credited the remittances against the overpayments for 111 beneficiaries.
    SSA waived $164,690 of the overpayments after 183 beneficiaries requested a waiver. 21
    SSA deleted $452,262 of the overpayments for 379 beneficiaries. 22
    SSA transferred $9,158 of the overpayments it determined were incorrectly charged to five of
     the beneficiaries. 23

As of March 2013, 1,147 beneficiaries 24 still had overpayment balances, totaling $1.4 million,
because of the replacement checks they received.




20
  SSA collected the overpayments from the beneficiaries’ benefit payments. It also collected lump-sum death
payments to credit towards the overpayments on beneficiaries’ records.
21
  Of the 183 beneficiaries, 182 had a waiver transaction code on their ROAR record. The remaining beneficiary
had a transaction code indicating the overpayment was reduced because of her request for reconsideration.
However, SSA sent her a notice stating the $873 overpayment was waived.
22
   SSA deleted the overpayments for multiple reasons. In some cases, the overpayments were deleted and
transferred to a non-entitled individual so the Agency could track the overpayment without adversely affecting the
beneficiary. In other cases, the original non-received payment was returned to SSA, and SSA deleted the
overpayment rather than inputting a credit in the ROAR system. We also identified cases where the beneficiary was
notified that the overpayment was removed from his or her record, but the notice and SSA’s Debt Management
System did not document why the overpayment was deleted.
23
  In four of the five cases, the original non-received payment was erroneously paid to another beneficiary receiving
benefits on the same SSN. Therefore, the overpayment was transferred from the beneficiary whose payment was
replaced to the beneficiary who erroneously received the original payment. The fifth overpayment was for a CPS
payment to a beneficiary whose benefits were subsequently terminated, and the overpayment was transferred to
another beneficiary on the same record.
24
  The 1,147 beneficiaries include the 279 beneficiaries whose overpayments SSA had partially collected, waived,
deleted, or transferred.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)                 7
SSA’s Policy Change
On May 7, 2012, SSA released Emergency Message EM-12021, Handling Alleged Direct
Deposit Fraud Cases and the Resulting Overpayments, which required that SSA field office
employees report any beneficiary claim of an unauthorized direct deposit change made to his/her
account to OIG for investigation. The policy also called for SSA to provide eligible beneficiaries
immediate payments to replace those not received due to unauthorized direct deposit changes
and suspend the collection of overpayments caused by the replacement payments. 25

SSA replaced 2,482 of the 4,327 missed payments in our population reported on or after
May 7, 2012. Of the 4,327, SSA referred 1,567 to OIG for investigation. SSA replaced 1,131 of
the non-received payments referred to OIG.

Of the 2,452 beneficiaries in our population charged overpayments, SSA collected overpayments
from 970. SSA collected overpayments from 442 of the 970 beneficiaries after May 7, 2012. 26
Of these, SSA had referred 249 to OIG.

Additionally, of the 1,147 outstanding overpayments, 951 were in protest status. While SSA did
not attempt to collect the overpayments being protested, it attempted to collect overpayments
from 175 beneficiaries whose overpayments were not in a protest status. Ninety-one of these
overpayments were established on or after May 7, 2012. 27 Of these, SSA had referred 38 to OIG.

We have shared the results of our reviews of the allegations related to our population with SSA.
We are committed to investigating allegations of direct deposit fraud. Unfortunately, because of
the nature and methods criminals employ to perpetrate this type of fraud, the overwhelming
majority of these type of allegations provided little information that lead to identifying a possible
subject. Our decision not to pursue an allegation because of a lack of information on a possible
subject should have no bearing on SSA taking the administrative action it deems appropriate to
rectify a beneficiary’s record.

Lastly, the revised policy instructed SSA staff on how to process reported missed payments due
to unauthorized changes on or after May 7, 2012. To our knowledge, SSA has not applied the
new policy to cases of missed payments reported before May 7, 2012.




25
  EM-12021 SEN REV, released November 28, 2012, required SSA staff not to charge new or protested
overpayments resulting from a one-time payment issued because of an unauthorized direct deposit change to the
beneficiary who reported the non-received payment. Instead, SSA staff should establish an overpayment for a
non-entitled debtor—someone other than the beneficiary
26
     SSA collected $418,005 from 442 of the 970 beneficiaries after May 7, 2012.
27
  Additionally, it was billing two former beneficiaries for the overpayments charged to them. SSA did not attempt
to collect the overpayments charged to another 19 beneficiaries who were in terminated payment status. Collection
activity was terminated for 16 of the 19 beneficiaries. Three additional beneficiaries were deceased, but collection
activity had not been terminated.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)                     8
CONCLUSIONS
We identified 23,192 beneficiaries who had multiple changes to their direct deposit information
and who reported that they did not receive 25,728 Social Security payments, totaling
$28.3 million, between September 2, 2011 and June 11, 2012. While SSA recovered some of the
initial redirected benefit payments, it did not recover them all. Similarly, while SSA sent many
of the beneficiaries’ replacement payments, it did not send replacement payments to all. See
Table 2.

                 Table 2: Non-received Payments and Replacement Payments
                                                                                  Dollar Amount of
                                                            Number of
                         Status                                                   Benefit Payments
                                                           Beneficiaries
                                                                                    (in millions)
    Initial Payment Recovered,
                                                                7,695                       $10.7
    Replacement Payment Sent
    Initial Payment Not Recovered,
                                                                5,896                        $6.7
    Replacement Payment Sent
    Initial Payment Recovered,
                                                                   160                       $0.2
    Replacement Payment Not Sent
    Initial Payment Not Recovered,
                                                               10,101                       $10.7
    Replacement Payment Not Sent
                     Total                                    23,852*                       $28.3
   *Total does not equal 23,192 because some beneficiaries had multiple payments redirected and SSA recovered
    one of the misdirected payments, but not the other.

Also, SSA charged nearly 2,500 of the beneficiaries with overpayments for replacement
payments they received after reporting they did not receive their benefit payments.

In May 2012, the Agency changed its policy related to recovery of overpayments for
replacement payments for alleged misdirected payments. To ensure a beneficiary did not have to
pay back an overpayment until all actions on his or her case were complete, the overpayment
was to be placed in protest status. We are concerned that SSA did not process some cases after
May 7, 2012 in accordance with its revised policy. Additionally, SSA’s instructions to staff on
handling non-received payments after unauthorized changes differed before and after
May 7, 2012. Hence, a beneficiary who reported an unauthorized non-receipt on May 6, 2012
was treated differently from a beneficiary who made the same report on May 7, 2012. To our
knowledge, SSA had taken no action to reevaluate the accounts of beneficiaries who reported the
unauthorized misdirection of their payments reported before May 7, 2012. We believe all
beneficiaries who had unauthorized changes to their accounts should receive replacement
payments without an overpayment charged against them regardless of when they reported the
problem.




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)              9
RECOMMENDATIONS
Accordingly, we recommend that SSA:

1. Provide beneficiaries replacement payments for missed payments due to unauthorized
   changes to their direct deposit information.

2. Implement a consistent policy to refund overpayments collected from beneficiaries for
   replacement payments received after unauthorized changes to their direct deposit
   information.

3. Ensure beneficiaries with outstanding overpayments for replacement payments after
   unauthorized changes to their direct deposit information are not held liable for repaying
   them.

AGENCY COMMENTS
While it disagreed with Recommendations 1 and 2, the Agency agreed to review and correct the
cases we identified as being erroneously processed between May 7 and June 11, 2012. While
this should help make some beneficiaries whole, many others may not be helped. For example,
only 1,463 of the over 11,000 non-received payments that were not replaced had payment dates
between May 7, 2012 and June 11, 2012. Similarly, SSA recorded only 368 of the nearly
2,500 overpayments charged beneficiaries who received replacement payments after they
reported they did not receive their initial benefit payments between May 7 and June 11, 2012.

We continue to believe that SSA should replace all missing payments due to unauthorized
changes to direct deposit information regardless of when the unauthorized changes occurred.
Similarly, SSA should not treat beneficiaries charged overpayments differently because of the
date their overpayments were inaccurately assessed.

SSA agreed with Recommendation 3. The Agency’s comments are included in Appendix C.




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   10
                                        APPENDICES




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)
Appendix A – SCOPE AND METHODOLOGY
To complete the objective of our review, we:

   Reviewed applicable sections of the Social Security Act, Code of Federal Regulations, and
    other Public Laws related to electronic funds transfer.
   Reviewed the section of the Program Operations Manual System related to direct deposit
    actions; fraud; non-receipt of Title II payments; overpayments; the Payment History Update
    Systems (PHUS); and Recovery of Overpayments, Accounting and Reporting (ROAR)
    system.
   Reviewed the applicable Operations Bulletins, Administrative Messages, Emergency
    Messages, guides, and regional instructions on processing direct deposit requests.
   Spoke with staff from the Social Security Administration’s Offices of Systems and Quality
    Performance to gain an understanding of the controls over direct deposit changes.
   Reviewed six final Office of the Inspector General (OIG) reports –
       Improperly Titled Bank Accounts for Beneficiaries with Representative Payees
        (A-01-09-19055), March 31, 2011
       Controls over Changes Made To Direct Deposit Routing Numbers
        (A-02-08-28052), March 26, 2010
       Direct Deposit Changes Initiated by the SSA's National 800-Number Staff
        (A-02-12-21272), July 10, 2012
       Direct Deposit Changes Initiated Through Financial Institutions and the Social Security
        Administration's Internet and Automated 800-Number Applications
        (A-14-12-21271), December 20, 2012
       Controls over the Enrollment Process with the Direct Express® Debit Card Program
        (A-15-12-21273), December 21, 2012
       Controls over Direct Deposit Changes Initiated in Field Offices (A-06-12-22101),
        January 23, 2013
   Obtained data of direct deposit changes from the Audit Trail System (ATS) and non-receipt
    of payment from PHUS to identify a pattern of direct deposit changes followed by reports of
    non-receipt of a Title II benefit payment, and then followed by other direct deposit changes.
   Obtained PHUS data to identify the return of non-received payments to SSA and replacement
    payments sent to beneficiaries.
   Obtained a data extract from the Master Beneficiary Record (MBR) and ROAR to identify
    overpayments charged for the replacement payments and determine whether those payments
    were repaid or recovered.
   Obtained a list of allegations of fraudulent and/or unauthorized changes to direct deposit
    information from our Office of Investigations.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   A-1
   Used the Agency’s software toolbar (Qwiz) to query additional information, such as Special
    Messages in the MBR and the ROAR section of MBR, for non-entitled debtors.
   Used the following methodology to estimate unauthorized direct deposit changes.
       We obtained data of direct deposit changes from ATS, followed by a non-receipt of
        payment, followed by another direct deposit change from ATS between September 1,
        2011 and June 12, 2012. Per PHUS, the payment dates for the non-received benefit
        payments were between September 2, 2011 and June 11, 2012. The beneficiaries who
        did not receive the benefit payments reported the non-receipt of their payments from
        September 6, 2011 to August 17, 2012.
       We compared the bank account and routing numbers from the initial direct deposit
        change to the subsequent change and excluded 12,498 cases that appeared to be a
        transposition error. We did not exclude cases that at first appeared to be a transposition
        error if SSA’s records had a Special Message indicating direct deposit fraud had occurred
        with the case or if our Office of Investigations had an allegation that the case involved
        fraudulently redirected benefits payments.
       We identified 25,728 transactions for 23,192 individuals who had a direct deposit change
        followed by a report of non-receipt of Title II payment and a subsequent direct deposit
        change that did not appear to have a transposition error. The direct deposit changes
        diverted $28,264,153 in benefit payments.

From our previous audit work that used a similar methodology, we believe the changes made to
the 23,192 beneficiaries’ direct deposit information that led to their not receiving their benefits
were likely unauthorized. In our previous audit work, we spoke with beneficiaries who had
similar changes to their direct deposit information and they confirmed that they did not authorize
the changes that led to their not receiving their benefit payments.

For this project, we did not initially plan to contact the beneficiaries to confirm whether they had
authorized the direct deposit changes because contacting over 23,000 beneficiaries was beyond
our resource abilities. After discussions with SSA, we decided to call a small sample of
beneficiaries in our population to ask them if they authorized the direct deposit changes we
identified. We called the beneficiaries in October and November 2013.

Because of the large gap in time from when the reported non-receipt of payments occurred
(September 1, 2011 to June 11, 2012) to when we called the 50 beneficiaries (October and
November 2013), we selected 50 beneficiaries from the latter part of our audit scope.
Specifically, we selected 50 beneficiaries who had not received replacement payments with the
most recent direct deposit changes made through auto-enrollment. We focused on changes made
through auto-enrollment because it was the most common method used to change direct deposit
information in our population. We focused on those who did not receive replacement payments
because we believed it was more likely SSA determined the direct deposit changes had been
authorized, therefore the beneficiaries were not due a replacement payment.




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   A-2
We were able to speak with 36 of the 50 beneficiaries. Of these, 22 reported they had not
authorized the changes, 3 refused to answer our questions, and 11 reported they authorized the
changes. Of the 14 beneficiaries we were unable to locate, 4 had messages in SSA records
indicating the changes were unauthorized and potentially fraudulent.

The records of 12,729 of the 23,192 beneficiaries also had other indicators that increased the
likelihood that the direct deposit changes were unauthorized. The other indicators identified are
detailed in the following five bullets.

   We compared the records of the 23,192 beneficiaries to OIG records of fraud referrals and/or
    allegations. We found that 5,726 cases were referred to OIG for a direct deposit related fraud
    investigation or OIG had received an allegation of direct deposit fraud.

   We reviewed the MBRs of the 23,192 beneficiaries for special messages within SSA records
    indicating that an unauthorized change to the direct deposit information. We found that
    6,347 cases had such a special message. Additionally, we identified remarks on 166 of the
    beneficiaries’ Supplemental Security Income Records indicating unauthorized direct deposit
    changes. (SSA staff only referred 3,989 of the 6,513 cases with messages indicating
    unauthorized direct deposit changes to OIG for a fraud investigation; 2,524 were not referred
    as of June 2013. Similarly, not all cases referred to OIG had special message or remarks on
    their records.)

   We looked at two bank routing numbers when selecting our population of beneficiaries; the
    routing numbers before and after the beneficiaries’ reported missing benefit payment. As an
    additional analysis, we reviewed a third bank routing number, the routing number on the
    beneficiary’s record before the routing number change that resulted in the missing benefit
    payment. We wanted to determine whether this routing number matched the routing number
    the to which the benefit was directed after the beneficiary reported a missing payment. If so,
    it would suggest that someone redirected a beneficiary’s payment from the beneficiary’s
    account, which the beneficiary then corrected after he discovered he did not receive his
    payment because his routing number was changed without his knowledge. In 7,268 cases,
    the routing numbers before the direct deposit account change were the same as the routing
    numbers after the non-receipt report.

   We identified in PHUS the number of beneficiaries to which SSA provided a Critical
    Payment System (CPS) replacement payment after they reported they did not receive their
    benefit payments. SSA provided 6,922 of the beneficiaries with a CPS payment. We
    compared these 6,922 beneficiaries to the remaining beneficiaries who did not have one of
    the characteristics identified by the matches explained in the previous bullets. As a result, we
    identified 1,907 additional beneficiaries. We believe these beneficiaries were more likely to
    have had an unauthorized direct deposit change because SSA determined they did not receive
    their benefit payments and were in need of a CPS replacement payment to meet their dire
    needs.




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   A-3
   We also identified 49 beneficiaries who did not have a representative payee or the same
    representative payees and whose benefit payments were redirected to a bank account shared
    by another unrelated beneficiary. Accordingly, none of the beneficiaries had the same
    organizational representative payee that used master sub-accounts. The fact that the benefit
    payments of these unrelated beneficiaries were redirected to a shared bank account suggests
    that the redirection was due to an unauthorized direct deposit change.

We took the following steps to determine which benefit payments were returned and/or replaced
and which beneficiaries were charged overpayments for the replacement payments received.

   We extracted returned check events from PHUS that corresponded to the
    25,728 non-received payments. We identified 8,087 payments returned as of
    August 21, 2012, totaling $10,758,171.

   We compared our file of 25,728 non-received payments to a file of 23,181 retroactive and
    CPS payments and determined the following were replacement payments if they occurred
    after the date the non-received payment was due: payments on or after the date of a returned
    non-received check, payments equal to the non-received payment, critical payments equal to
    either the non-received payment amount, a multiple of that amount, or the non-received
    payment amount plus the amount of the Medicare part B premium, or a corresponding
    replacement payment event was added to PHUS. In total, SSA sent replacement checks to
    13,380 beneficiaries who reported they did not receive their benefit payments, totaling
    $17,354,405.

   In May 2013, we provided SSA a list of 11,142 non-received payments, totaling
    $10,861,456, which the Agency had not replaced.

   We obtained a data extract from ROAR of the individuals who had non-receipts preceded
    and followed by direct deposit changes. We compared the ROAR data to our data of
    replacement payments issued by CPS. We determined whether the overpayment was for the
    replacement payment based on the overpayment reason and compared the date of the
    payment to the date of the overpayment, and the amounts of either the non-received payment
    or the replacement payment and the overpayment amount. We determined that SSA recorded
    overpayments for 2,452 of the beneficiaries who reported they did not receive their initial
    benefit payments and received replacement payments, totaling $3,009,118.

   We used Qwiz to obtain the balances of these overpayments, totaling $1,409,671, as of
    March 2013. We identified $78,370 in remittances credited toward the beneficiary
    overpayments. We also used Qwiz to obtain ROAR information for non-entitled debtor
    overpayments and compared overpayment amounts to the amounts of non-receipts,
    replacement payments, and the amount of overpayments charged to beneficiaries. We
    identified overpayments transferred from beneficiaries to non-entitled debtors and $2,134 in
    remittances credited toward these overpayments. We identified additional overpayments
    charged to non-entitled debtors and $7,228 in remittances credited toward these
    overpayments.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   A-4
   We added the $87,732 in remittances to the $10,758,171 in returned checks for a total
    returned payment amount of $10,845,903.

We conducted our audit work in the New York Audit Division between June 2012 and
July 2013. We also attempted to call 50 beneficiaries in October and November 2013 to ask
them if they had authorized the direct deposit changes we identified. The entity audited was the
Office of Operations under the Office of the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and conduct the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   A-5
Appendix B – NON-RECEIVED PAYMENT TRANSACTIONS
Between September 2, 2011 and June 11, 2012, a total of 23,192 beneficiaries who had multiple
changes to their direct deposit information reported that they did not receive 25,728 Social
Security payments totaling $28.3 million.

Direct deposit changes were made before and after beneficiaries did not receive payments. The
changes redirected the benefit payments to Direct Express cards, prepaid debit cards, or bank
accounts, as shown in Table 1.

                                 Table 3: Initial Direct Deposit Changes

                            Type of Account to Which Payments Were Redirected
How Direct
Deposit Change                                                                                          Total
Was Initiated                                                              Prepaid Debit
                          Direct Express               Banks
                                                                              Cards 1

Financial
                               4,852                   2,847                    7,181                  14,880
Institution
Teleservice
                                388                    4,196                     952                    5,536
Center
Field Office                    257                    3,360                     470                    4,087
Internet 2                        6                     599                      116                     721
Other 3                          23                     403                       78                     504
       Total                   5,526                   11,405                   8,797                  25,728

The average time between the initial direct deposit changes and the corresponding non-received
payments was 29 days; the median was 22 days. The time between the two events for about
10 percent of the cases was 100 days or longer.


1
  We identified prepaid debit cards through the specific routing numbers associated with them. However, we may
not be aware of all the routing numbers used by some prepaid debit cards. In such cases, the prepaid cards would be
included in the “Banks” column.
2
  At the time of our audit, beneficiaries could use SSA’s Direct Deposit Internet application on the Agency’s
Website to initiate direct deposit of benefits or change direct deposit account information. The numbers in this table
do not include direct deposit changes made through the Agency’s MySSA online portal. MySSA did not begin
receiving direct deposit changes until 2013—after our audit period.
3
 Other types of Social Security offices can also initiate direct deposit changes. For example, SSA’s Payment
Centers and Foreign Service Posts can initiate direct deposit changes. SSA recovered the full amount of
8,136 payments and partial amounts for 95 payments. Of the $10.9 million recovered, $1.1 million was for
payments to direct express cards and $3.6 million was for payments to prepaid debit cards. The remaining balance
of $6.2 million were payments directly deposited into banks.



Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)                B-1
The beneficiaries who reported non-received payments lived throughout the United States but
resided predominantly in the north- and southeast. The map shows where the beneficiaries
resided.




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   B-2
           Appendix C – AGENCY COMMENTS




                                             SOCIAL SECURITY

MEMORANDUM


Date:      April 25, 2014                                                                 Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Non-Receipt of Social Security Benefits Due to
           Unauthorized Direct Deposit Changes” (A-02-13-23004) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “NON-RECEIPT OF SOCIAL SECURITY BENEFITS DUE TO
UNAUTHORIZED DIRECT DEPOSIT CHANGES” (A-02-13-23004)
Recommendation 1
Provide beneficiaries replacement payments for missed payments due to unauthorized changes to
their direct deposit information.
Response
We disagree. However, for the audit period from May 7, 2012 to June 11, 2012, we will review
and correct the cases OIG identified for us as being erroneously processed by our not issuing a
replacement check. Moreover, if and when a beneficiary or recipient contacts us about an
alleged unauthorized change to their direct deposit information that resulted in him or her
missing a payment from the audit period prior to May 7, 2012, we will process that case under
our current policy.
Recommendation 2
Implement a consistent policy to refund overpayments collected from beneficiaries for
replacement payments received after unauthorized changes to their direct deposit information.
Response
We disagree. We have a policy for processing cases where beneficiaries allege their direct
deposited benefits were misdirected. We have long-standing policies in our regulations and
procedures that provide beneficiaries and recipients several levels of due process protections for
overpayments, including formal administrative appeal rights (after sufficient notice) and the right
to request waiver of any overpayment at any time. However, for the audit period from
May 7, 2012 to June 11, 2012, we will review and correct the cases OIG determined we
erroneously processed by collecting an overpayment.
Recommendation 3
Ensure beneficiaries with outstanding overpayments for replacement payments after
unauthorized changes to their direct deposit information are not held liable for repaying them.
Response
We agree. Before we start collecting an overpayment in an individual case, we send a notice to
the individual explaining his or her right to appeal the overpayment. In addition, this notice
provides the individual the right to request a waiver of our collection activities at any time in the
process. Both the right to a formal appeal and the right to request a waiver are specified policies
in our regulations. Consistent with the agency’s policies and regulations, we will review and
correct the cases OIG identified for us as being erroneously processed (i.e., erroneously
collecting an overpayment).




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   C-2
Appendix D – MAJOR CONTRIBUTORS
Timothy Nee, Director

Christine Hauss, Audit Manager

James Kim, Auditor-in-Charge

Siuwan Kuether, Program Analyst

Charles Zaepfel, IT Specialist

William Kearns, IT Specialist

Pamela Kilgallon, Management Analyst




Non-receipt of Social Security Benefits Due to Unauthorized Direct Deposit Changes (A-02-13-23004)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
